^ ft
IN THE SUPREME COURT OF THE UNITED STATES
Benjamin Mario Soto,
PETITIONER
VS.
Minnesota Department of Human Services et al,
a'

RESPONDENT,

I/\
r

[•
V

I..-.

AFSCME Union Council 5 Local 2181 et al,
RESPONDENT.

[

I

j

■

i- :

t .

L

!-

FILED
DEC 1 0 2020
I SUPREEMEFCTOURTLn qK |

ON PETITION FOR WRIT OF CERTIORARI TO
STATE OF MINNESOTA IN SUPREME COURT
Motion to Proceed with only 1 Filing for Each Stage of my Proceeding in this
Court
Benjamin Mario Soto
407 Goodrich Ave.

BECEWED
St. Paul, MN S5102

DEC 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S

612-479-5104
Page 1 of 2

No.

IN THE
SUPREME COURT OF THE UNITED STATES

b

4' 0

— PETITIONER

(Your Name)

yi ^h^-S ofo- y>e-pa^i^n^MV'^ Q f

S ty~\j

)

U*.tor\ CpUvMfl £ Loc*) %/g) — RFRPflMnFMT(.q)
ON PETITION FOR A WRIT OF.CERTIORARI TO

----- c*4~^-—Q\f_____ /~7]PSl H

^ C<D6eS/~

(NAME OF COURT THAT LAST RULED ON. MERITS O fYOUR CASE)
PETITION FOR WRIT OF CERTIORARI

P-

I

"A Hi Cl*/11 6 f

(YourName)

C-r-

In

fiiSJ PL-*

(Address)

<V. R* J. Pif) £5 l&X
(City, State, Zip Code)

£22^I23-=i|ir^ ;

(Phone Number)

QUESTIONS PRESENTED
1. My employment contractual due process property rights were deprived without
due process by all defendants violating the 5th and 14th Amendments of the U.S.
Constitution.
2. Minnesota State judicial officers are trained professionals at law and do not
honor the U.S. Constitution and all laws pursuant to stating many times in their
filings that the U.S. Constitution does not apply to and has no force in Minnesota
or any State in the Union in violation of Article 6 of the U.S. Constitution and their
oaths or affirmations to the U.S. Constitution even after being informed by me in
my filings many times from the Minnesota District Court on up to the Minnesota
Supreme Court demonstrating these judicial officers agents of the State of
Minnesota required to inforce the will of the State of Minnesota deliberately
acting outside their judicial capacities or in complete absence of jurisdiction
violating the 5th and 14th Amendments for due process and equal protection of
the laws.
3. Minnesota State judicial officers stated many times in their filings that the
Minnesota Constitution does not apply and has no force in the Minnesota Courts
violating the 5th and 14th Amendments for due process and equal protection of
the laws.

Page l of 5

4. Federal and State Courts cannot assume legislative powers. Courts of Minnesota
and defendants have misapplied/extrapolated numerous erroneous case laws
both State and Federal. Just because something is intended to be a widelyaccepted-rule does not change the fact that is not in this case violating Articles 1
and 6 of the U.S. Constitution as stated throughout my filings.
5. Minnesota Courts claim that 42 USC 1983 is not a law that they have to enforce
and are not obligated and will not honor in their courts violating Article 6 of the
U.S. Constitution.
6. Allen v. Hennepin County, 680 N.W. 2d 560, at 563 (Minn. Ct. App. 2004) 90 day
limitation from the Uniformed Arbitration Act cannot be extrapolated to apply to
this case by the courts where arbitration was not allowed by contract/(Governing
Collective Bargaining Agreement [CBA]) violating the 5th and 14th Amendments
for due process and equal protection of the laws.
7. As I stated numerous times in my filings that the Minnesota State judicial officers
assumed to interpret the Governing CBA contractual language misinterpreting
the clear and explicit language of the Governing CBA violating Article 1st of the
U.S. Constitution which states that States cannot pass any law impairing the
obligations of contracts. Judicial officers have no authority to interpret the clear
and explicit language of any contract doing so violates due process and equal
protection of the laws according to the 5th and 14th Amendments of the U.S.

Page 2 of 5

Constitution further proof of these judicial officers acting outside their judicial
capacities or in complete absence of jurisdiction.
8. As stated numerous times in my filings that I had a protected interest in
continued employment see all my filings and, Article 16 Sections 1 and 3 also
Article 12 Section 10 D of the Governing CBA, including my Probationary
Appointment Letter all submitted in my initial Minnesota District Court Complaint
defendants violating the 5th and 14th Amendments for due process and equal
protection of the laws. My contractual property right stated that the only reason
for termination/(non-certification) was if I could not perform (output and
accuracy) which is the same reason for all employees which was never
proven/(documentation needed to be submitted in my Personnel File as required
by the Governing CBA) Minnesota Department of Human Services (MNDHS)
defendants only made false claims of being unprepaired.
9. As stated numerous times in my filings that I had a cognizable claim under the
Americans with Disabilities Act since I initiated an ADA claim with the MNDHS as
required by 29 CFR App. 1630.9(1998) which is another violation of the 5th and
14th Amendments for due process and equal protection of the laws.
10. Minnesota Appellate Court upheld a Finding of insufficient fact and a failure to
exhaust administrative remedies of my ADA claim. Finding of insufficient
facts/evidence is the duty of a jury to decide not a Judge(s) as requested in my

Page 3 of 5

Initial Minnesota District Court Complaint violating due process and equal
protection of the law according to the 5th and 14th Amendments.
11. As stated numerous times in my filings that since I was not an "at will" employee
AFSCME Union misrepresented me ignored/ (deprived of) by the Minnesota
Courts et al in violation of due process and equal protection of the laws according
to the 5th and 14th Amendments.
12. Defendants and defendant actors do not have immunity to suit in this State
action and can be added at any time since the 11th Amendment of U.S.
Constitution does not apply in this case according to its clear and explicit
language since I am not a foreigner to Minnesota, including violation of U.S.
Constitution Article 1 Section 10 Clause 1 as I stated above. Carter v. Peace
Officers Standards and Training Bd., 558N.W.2d 267, 273 (Minn. App. 1997) does
not apply since it utilized federal case law that utilized the 11th Amendment and
does not apply in a State action brought by a Minnesotan.
13.1 was denied the use of these case laws Bivens v. Six Unkown Named Agents of
the Federal Bureau of Narcotics, 403 U.S. 388 (1971), and Hafer v. Melo, 502 U.S.
25 (3rd Cir. 1991) all cited in my initial Complaint and further filings for the
inclusion of all actors which can be added at any time during proceedings in a 42
USC 1983 action not allowed by the Minnesota Courts et al in violation of due

Page 4 of 5

process and equal protection of the laws according to the 5th and 14th
Amendments.

Page 5 of 5

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page,
pj All parties do not appear
in the caption of the case on the cover page. A list of
all parties to the-proceeding in the court whose judgment is the subject of this
petition is as follows:

n

I/1-

Ot. VT

V\*.i*dL
Coy? fieri

JL

U H'/ q/\

&L c f~£>rS,

~hhx-f-

a./' e-

-by fl/ty Aof ))sfji t ft
1$

jT U-S&vL

c^Olb0r£ oJ^dU
b'A-i' W^‘rC- <L^\ l ejt

ol/

r

JT

fluu

RELATED CASES

Xn

C

Vs, 0:S^rc~f Co

j* jdUnnt^ofcK '

M>. 'xo-cxt- u&<?Cd^f/ec\X)
/ n[) uh,C'cf **""•

feuy^S

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A D^clsro^

c?
0

APPENDIX B

#f

APPENDIX C P&Cs/S i {?P\ Gif H/nn
APPENDIX D
APPENDIX E
APPENDIX F

^
Ct*

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Cp&rtfe

" /A&/> U fa[\c; ^ V-S- AS{3^

j^cj-fY

\

AlUn v. HetMk^lCgu^y ;

Lfi: nyis, Ct. hfp;

yo

' 5,-

0

6 $0 U- \J. %(£ S(0; aj^3^3

doay

l^hm J~c~ f Iff^ ifrent,,

ntfion, tie# i^.

d'nfentrha

hy

Wd'i^^g dLe&i$ fdsi,

- £k/4v4e Ye^; %0/>i o,% 7^5 C/9Oz),
STATUTES AND RULK

^

^'

M OSO t%33
flrtf'Scles l (x n Jt Qj*.*e£ kv^ryjlSj ll
0 f ''bft'

i?, Si Ci3ns fJ i’tefipri /

A vhs&t^iQx,-nS

\*s(fh Dfsctk) hfT& ftctltfOtj),

-STCFK A PF%

C*jr]

ruliL

/) 3/-\ C [(X. i sm

J&H S’ yin i F)/

U-/ix5 fdefalrfL AaS^S I f 6 *~i£/ ViXOiiT &>1s£F'

1 hi fjdf&jl :
OTHER

’

A A tele/ 1°^ $£rc,f <os\ 10 V
&
'

C
a-tZm'b
7
Hi Co^^Lrf/t>ti

?y

~£l,.kJ. L**r-

fa c/
Qm\f; /\a

/}y4iol& If S^cASb^s \clfvY
'fo*<X(ff<suK /

/.

,, f

i

f,

Bctrct sAlf yAH-e»

zKftUoAly Shtfiy

id
\ •■/

u*

L&H'&S1 o f

ptf
l/h

d

A

^

>i

, fu

nfi%

2/y

Pif^r-/ce/~ Cerc^~tf~ oA H,}ii^£goiy\, G&yoj&i.fvyf
% u* nS /v>___ _ ^

>/i.in I. . d r<J~^A*i. s

'IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
l

Petitioner respectfully prays th;p,t a writ of certiorari issue to review the judgment below.
OPINIONS- B ELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
:

to

i
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
L ] is unpublished.

l/For

cases from state courts:
The opinion of the highest sir te court to review the merits appears at
Appendix Ji&C to the petition and is
[ ] reported at
I or,
tJ[ has been designated for publication but is not; yet reported; or,
[:.j is unpublished.
The opinion of the H'/P\

court

appears at Appendix /K}B to the petition and in
[ ] reported at
J or,
[ ] has been designate i for publication but is not yet reported; or,
is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ______________ !______
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order 'denying
rehearing appears at Appendix
\
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including '
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix C-

n q A.fAflag

[ ] A timely petition for rehearing was thereafter denied on the following date:
_________ :__;__________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CCtSl

(jA G

&f Yh't- US*

- Hft

HU***, cLi^s /
ll&r T'-^y /fret./a^as’/i'e-r

bh tKy (ffaH,
ft DA
-

y

fu.'Ac M ,

Qi°i OpP App.

io

lH ^Ae- V*S,
l6?0.e,Ct<$1g)

',£ no ft ck.
(-evs-ft

STATEMENT OF THE CASE

Pro se

Petitioner Benjamin Mario Soto, a former employee of Respondents Minnesota
Department of Human Services (MNDHS) and AFSCME Union participant sued MNDHS
and AFSCME for being arbitrarily terminated/ (non-certified) during probationary period
and misrepresented as an at will employee violating my employment contractual due
process property rights which were deprived without due process by all defendants
violating the 5th and 14th Amendments of the U.S. Constitution. MNDHS notified me that
I would not be certified making false undocumented ridiculous claims of failure to be
prepared for work. The Governing Collective Bargaining Agreement (CBA) required lack
of performance (output and accuracy) complaints to be documented and submitted to
my Personnel File for contractual due process my Personnel File is empty of any/all
complaints. The MNDHS violated my contractual CBA due process rights falsely claiming
Probationary Employment was "at will" terminating my employment with AFSCME
Union misrepresenting me in the termination process. According to the clear and
explicit language of the Governing CBA Article 16 Sections 1 and 3 all employees have
just cause employment status. According to the clear and explicit language of my
Probationary Employment Appointment Letter the only reason for non-certification was
for lack of performance (output and accuracy) further establishing contractual "just
Page 1 of 2

cause" employment right. Lack of performance is the same "just cause" reason for
terminating any employee including permanent employees.
I stated sufficient due process claim ignored(deprived of) by the Minnesota State Courts
et al. In this state court action the State does not enjoy 11th Amendment U.S.
Constitutional Immunity since I am a Minnesotan. According to Article 1 of the U.S.
Constitution no State shall pass law impairing the obligations of contract. The State is a
person in this case that can be sued under 42USC1983. Since I initiated an Americans
with Disabilities Act (ADA) claim with the MNDHS the State further does not enjoy 11th
Amendment immunity. Union Exclusive Remedy does not exist in this case since the
clear and explicit language of the Governing CBA does not state/give that right violating
Article 1 of the U.S. Constitution as stated above and also considering that the Union
misrepresented me as an "at will" employee*
Justice Leonardo Castro, Ramsey County District Court, granted MNDHS and AFSCME
Union motions to dismiss my claim with prejudice upheld by the Minnesota Appellate
and Supreme Courts depriving me of my legal and contractual property rights
guaranteed by the 5th and 14th Amendments of the U.S. Constitution claiming that the
U.S. Constitution does not apply to any State in the Union including Minnesota in this
case in violation of Article 6 of the U.S. Constitution.

Page 2 of 2

Reasons for Granting the Petition

All Minnesota Courts et al are depriving me of my legal and contractual due process
rights and equal protection of the laws arbitrarily in violation of both Federal and State
Constitutions and the laws pursuant to claiming that the U.S. Constitution including
42USC1983 does not apply/(has no force of law) in any State of the Union acting beyond
their judicial capacities legislating/extrapolating law deliberately misinterpreting the
clear and explicit language of contracts are in clear violation of their oaths or
affirmations of office including violating Articles 1 and 6 of the U.S. Constitution as I
conveyed many times in all my filings in their courts acting clearly outside their judicial
capacities or in complete absence of jurisdiction the State claiming immunity from suit
and therefore not required to fulfill their contractual obligations utilizing the
reasons/laws/ (case laws) of their decisions of this case all of which needs to be
corrected by the U.S. Supreme Court that possess Original Jurisdiction guaranteeing the
Rights of We the People as promised.

Page 1 of 1

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
v

Date:

r,

l/j

Ujjp/lo 2

.
*

/'* J

